December 10, 2020

Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Writer’s Direct Contact
(415) 512-4017
(415) 644-6917 FAX
kelly.klaus@mto.com

John Nypl v. JPMorgan Chase & Co., et al., No. 20-770 (On Petition for a Writ of
Certiorari)

Dear Mr. Harris,
I am a member of the Bar of this Court and one of the lawyers for Wells Fargo Bank,
N.A. (“Wells Fargo”) in the above-captioned matter. Petitioner John Nypl filed a petition for a
writ of certiorari in this matter on November 30, 2020, and the case was placed on the Court’s
docket on December 4, 2020. Wells Fargo was the only appellee below, and is a respondent in
this matter before the Court.1 Because the case clearly does not warrant review, Wells Fargo
waives the right to file a brief in opposition unless one is requested by the Court. If the Court
requests a brief in opposition, we will promptly file one.

1

The caption names JPMorgan Chase & Co. and other entities that are defendants in an action
pending in the Southern District of New York. (Wells Fargo is not a party to that action.) The
petition before this Court involves a subpoena that Petitioner issued in the Northern District of
California to seek discovery in support of the New York action. Wells Fargo successfully moved
to quash the subpoena in the Northern District of California, and was the only appellee before the
Ninth Circuit.

Scott Harris
December 10,
2020 Page 2
Respectfully submitted,
/s/ Kelly M. Klaus
Kelly M. Klaus
Cc:

Daniel L. Feder
Joseph M. Alioto
Jamie Miller

